ROCHESTER OFFICE
903 West Center Street, Suite 230
Rochester, MN 55902
Phone: (507) 292-0080 ● Toll-Free: 1-866-292-0080
Fax: (507) 292-0060
Website: www.smrls.org ● Email: rochester@smrls.org

February 22, 2021
VIA ELECTRONIC FILING AND US MAIL
Hon. Scott S. Harris, Clerk of the Court
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

Amos Mast, et al., Petitioners v. Fillmore County, Minnesota, et al.,
Case No. 20-7028

Dear Mr. Harris,
I represent Petitioners Amos Mast, et al., as counsel of record in the above-captioned case.
In accordance with Rule 37.2(a) of the Rules of the Supreme Court of the United States,
the Petitioner grants blanket consent to the filing of amicus curiae briefs in this case, whether in
support of either party or neither party, both prior to the Court’s consideration of the petition for
writ of certiorari, and, if certiorari is granted, at the merits stage.
Respectfully submitted,

Brian N. Lipford
c:

Christina Brown, counsel of record for Respondent Minnesota Pollution Control Agency
(via e-mail and US Mail)
Brett Corson, counsel of record for Respondent Fillmore County, Minnesota
(via e-mail and US Mail)

SMRLS Administrative Offices: 55 East Fifth Street, Suite 1000, St. Paul, MN 55101
SMRLS Board President: Brett Olander, Esq.
Chief Executive Officer: Jessie Nicholson, Esq.
LEGAL SERVICES CORPORATION

